Audit of Department of State Controls Over Bureau of Diplomatic Security Domestic Firearms and Optics (AUD/SI-11-25)
Search:SearchOIG HomeOfficesReports and PublicationsContact UsHotline
You are in: Reports, Publications, & Testimony > Audit Reports > Security and Intelligence
Audit of Department of State Controls Over Bureau of Diplomatic Security Domestic Firearms and Optics (AUD/SI-11-25)
April 29, 2011The following is a summary of the sensitive but unclassified (SBU) report.
Audit of Department of State Controls Over Bureau of Diplomatic Security Domestic Firearms and Optics (AUD-SI-11-25, April 2011)
The Department of State (Department), Office of Inspector General (OIG), issued the report on Department controls over Bureau of Diplomatic Security (DS) domestic firearms and optics to DS and the Bureau of Administration (A Bureau). The report presents OIG’s assessment of DS’s adherence to Department policies that ensure that firearms and optics (such as aiming devices and night vision goggles) are properly accounted for, maintained, and controlled. Specifically, OIG reviewed DS’s procedures for inventory, storage and protection, inspections, and shipment of firearms and optics for DS domestic offices.
OIG found that DS generally adhered to Department policies that ensured that domestic firearms and optics had been properly protected, maintained, and shipped. However, DS needed to implement an automated inventory system so that the potential for equipment to be lost or stolen was reduced. Also, the two bureaus needed to update the Foreign Affairs Manual : DS needed to reflect the current roles of personnel at specialized offices in the Washington, D.C., metropolitan area, and the A Bureau needed to include aiming and night vision optics in the definition for “sensitive equipment.”
DS and the A Bureau concurred with the recommendations to improve accountability of domestic firearms and optics.
USA.gov
Contact UsEmail this PageSearch the OIG Web Site
This site is managed by the Office of Inspector General and the Bureau of Public Affairs as a source of information from the Office of Inspector General. External links to other Internet sites should not be construed as an endorsement of the views or privacy policies contained therein.
External Link PolicyPrivacy PolicyFOIACopyright InformationWhite HouseOther U.S. Government Information